LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 9, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE: NO. 19-169:

JANE DOE V. IOWA

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for Amici Curiae Collateral Consequences Resource Center and Institute for
Justice, on September 9, 2019, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioner and Respondent:
PETITIONER:
Stuart Banner
UCLA School of Law Supreme Court
Clinic
405 Hilgard Ave.
Los Angeles, CA 90095
310-206-8506
banner@law.ucla.edu

RESPONDENT:
Kevin Cmelik
Iowa Department of Justice
Hoover State Office Building
Des Moines, IA 50319
515-281-5976
Kevin.Cmelik@ag.iowa.gov

This service was effected by depositing three copies of the Brief of Collateral
Consequences Resource Center and Institute for Justice as Amici Curiae in Support
of Petitioner in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting a digital copy via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

